C@OQCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-

JOHN YEARWOOD; WILLIAMSON COUNTY, TEXAS,
Petitioners,
Vv.

DEPARTMENT OF INTERIOR; UNITED STATES FISH
AND WILDLIFE SERVICE; DAVID BERNHARDT,
SECRETARY, U.S. DEPARTMENT OF THE INTERIOR,
in his official capacity; MARGARET E. EVERSON, in her
official capacity as DIRECTOR OF THE U.S. FISH AND
WILDLIFE SERVICE; AMY LUEDERS, in her official
capacity as the SOUTHWEST REGIONAL DIRECTOR
OF THE U.S. FISH AND WILDLIFE SERVICE,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 4848 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

rman Keres. 0. Llaoo? Qudeao bl, Chale

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 40190
